                   U.S. Department of the Interior
                       Office of Inspector General




                                        Photo Left: Kosrae
                                        Department of Education
                                        (Office of Inspector
                                        General Photo)




Photo Right: Desks
and Chairs Stored at
Kosrae High School
(Office of Inspector
General Photo)



                  Kosrae State,
          Federated States of Micronesia:
            Property Accountability Process
                Needs To Be Improved


Report No. P-EV-FSM-0001-2007          October 2007
                      United States Department of the Interior

                                         Office of Inspector General
                                               Washington, D.C. 20240


                                                                                       October 17, 2007


The Honorable Robert Weilbacher
Governor of Kosrae State
Federated States of Micronesia
P.O. Box 187
Tofol, Kosrae FM 96944

Re: Final Evaluation Report Kosrae State, Federated States of Micronesia: Property
    Accountability Process Needs To Be Improved (Report No. P-EV-FSM-0001-2007)

Dear Governor Weilbacher:

        This report presents the results of our evaluation of Kosrae State Government’s
property accountability process (Report No. P-EV-FSM-0001-2007). The objective of
our evaluation was to determine whether your Government’s accountability process
safeguarded supplies and equipment to minimize the risk of fraud, waste, and
mismanagement. We evaluated property accountability for supplies and equipment
purchased with grant funds for health and education, which totaled 65 percent of the
$6.5 million in financial assistance provided to Kosrae State by the Office of Insular
Affairs1 (OIA) in 2006. We also evaluated inventory practices for Kosrae State by
testing equipment used by the Department of Education (DOE). The scope and
methodology of our evaluation are detailed in Appendix 1.

                                 Results of Evaluation
       Kosrae State did not provide reasonable accountability over supplies and
equipment purchased with health and education grant funds. Under the Fiscal Procedures
Agreement (FPA) between the United States and the Federal States of Micronesia,2
Kosrae, as one of the Federated States, agreed to “maintain effective controls and
accountability for all Grant and Sub-Grant cash, Real Property, and personal property,
and other assets to safeguard and ensure uses are solely for authorized purposes.” The

1
  The Department of the Interior’s (DOI) OIA provides financial assistance to the Federated States of
Micronesia through a Compact of Free Association. The financial assistance, usually in the form of grants,
is targeted at high priority areas, such as health and education, to promote the financial and social well-
being of the States.
2
  Agreement Concerning Procedures for the Implementation of United States Economic Assistance
Provided in the Compact of Free Association, as amended, Between the Government of the United States of
America and the Government of the Federated States of Micronesia
FPA establishes equipment management requirements, including the following two
property accountability procedures.

    1. Maintenance of an inventory of all property having a useful life of more than
       1 year and an acquisition cost of $5,000 or more. Information required for each
       piece of equipment included, but was not limited to, a description of the property,
       a serial number or other identifying number, the date and cost of acquisition, the
       percentage of U.S. funding used, and the property’s location and condition.

    2. Performance of a physical inventory of property and reconciliation of results with
       the property records at least once every 2 years.

        Kosrae State’s commitment to “maintain effective controls and accountability”
requires that it design and implement, as necessary, additional procedures and controls to
safeguard supplies and equipment from fraud, waste, and mismanagement. We found
that Kosrae State had established supplemental procedures and controls in the areas of
recordkeeping, property identification, and inventory policies. For example, its Financial
Management Regulations (FMR) reduced the equipment accountability threshold to
$1,000 or more and added a requirement for property custodians to report all property in
their control to the Department of Administration and Finance every 6 months. However,
responsible personnel in Kosrae State’s Departments of Administration and Finance,
Health, and Education either did not perform property control duties required under the
FPA and FMR or were ineffective in their efforts. In addition, policies and procedures
were not sufficient to provide effective control. As a result, your Government has no
assurance that supplies and equipment purchased for the Kosrae State Hospital (Hospital)
and schools were used for authorized purposes or were protected from fraud, waste, and
mismanagement. We made five recommendations to help improve property
accountability. We believe that implementation of these recommendations will help
Kosrae State develop an effective, accountable, and transparent local government.

Hospital Supplies
       Based on the results of our review, we concluded that Kosrae State cannot provide
assurance that funds expended for medical supplies and pharmaceuticals were used for
authorized purposes. The Hospital did not follow inventory policies established to
account for, protect, and ensure the proper use of medical supplies and pharmaceuticals,
including narcotics identified as controlled substances under the Controlled Substances
Act because of their high potential for abuse.3 Of the $1.76 million in grant funds
received for health in fiscal year 2006, we identified $445,016 that was expended on
consumable goods, including medical supplies and pharmaceuticals, purchased for the
Hospital.

       We tested the reliability of the Hospital pharmacy’s inventory system by
reviewing purchases and distributions of 12 controlled substances made between June
2006 and February 2007. We identified mathematical and recording errors in the records,
3
 The Controlled Substances Act, Title II of the Comprehensive Drug Abuse Prevention and Control Act of
1970, 21 U.S.C. §§ 801-971, is the legal foundation for the U.S. Government’s fight against drug abuse.


                                                   2
which, when adjusted and compared to actual counts, revealed significant variances in 3
of the 12 controlled substances, as shown in the following table.

                         Variances in Three Controlled Substances
                                Amount on           Actual           Variance
              Drug              Inventory           Count       Overage   Shortage
        Tylenol with
        Codeine                     179               349          170
        Valium                     1,449             1,353                       96
        Phenobarbital              3,793             3,677                       116

        We were not able to determine the specific causes of the shortages because of
deficiencies in the pharmacy’s inventory practices. For example, pharmacy employees
admitted that they sometimes distributed controlled substances to Hospital wards without
written prescriptions. Further, they told us that they periodically adjusted the inventory
balances of pharmaceuticals on hand to agree with their physical counts of pills,
injectibles, and solutions without ascertaining the causes of the discrepancies. They also
informed us that they had not been using an automated inventory system since December
2006 because of a lack of prescription labels.

Education Supplies
        Kosrae State received $2.41 million for education in fiscal year 2006. With the
assistance of Kosrae State officials, we identified a total of $513,950 expended by DOE
for fixed assets and consumable goods, which included supplies and equipment. We
judgmentally selected and reviewed 10 large transactions totaling $360,460 to determine
whether supplies and equipment were received by intended recipients and used for
authorized purposes. Based on logbook and other records, DOE was able to confirm that
purchased textbooks were received and distributed to the schools. We found, however,
that DOE did not maintain logbooks or other records to show how other supplies and
equipment were distributed or used. As a result, there was no way to verify that these
items, such as printers, printer supplies, typewriters, and even lumber and chain saws,
were distributed to the schools or used for education purposes. In addition, we could not
verify that two transactions for furniture, totaling $95,202, were reasonable or appropriate
and have referred these transactions to our Office of Investigations for review.

Equipment
        Based on the results of our review, we concluded that Kosrae State cannot ensure
that equipment and personal property purchased with grant funds were adequately
accounted for and protected from unauthorized use, theft, or loss. Kosrae State’s FMR
supplements FPA requirements by reducing the acquisition cost threshold to $1,000 or
more and by requiring that certain items, such as desks, chairs, printers, and computers,
be included in the inventory regardless of acquisition cost. In addition, the FMR requires
that property custodians provide a list of property under their control to the Director of


                                             3
Kosrae State’s Department of Administration and Finance or his designee every 6 months
indicating any changes, such as acquisitions not previously reported, damaged property,
or any disposition of property.

         According to Kosrae State’s Department of Administration and Finance, Division
of Property and Supply officials, a physical inventory was last performed in 2003.
However, they could not provide us with any supporting documentation showing that an
inventory was performed during that period or how inventory discrepancies, if any, were
resolved. Using an inventory listing dated September 2006, we sampled 223 out of a
total of 283 items held by DOE. (See the Appendix for a discussion of our sample.) We
found the following:

    ¾ None of the items had serial numbers shown on the inventory listing.

    ¾ 186 items did not have property tag numbers shown on the inventory listing.

    ¾ 125 items, valued at about $470,000, could not be found.

        During our testing, we found 60 items with property tags that were not included
on the inventory listing. Further, we noted that items required by the FMR to be listed on
the inventory regardless of cost did not include similar items like digital cameras,
camcorders, battery backups, sewing machines, and televisions that were purchased with
grant funds. During our visits to DOE offices and three schools, we observed 132 of
these sensitive items, which we estimated to be valued at about $25,000.

                              Recommendations
       To ensure that there are effective controls over supplies and equipment purchased
with Compact funds, we recommend that the Governor of Kosrae State:

    1. Enforce established ordering and inventory control policies for pharmaceuticals
       dispensed by the pharmacy.

    2. Enforce inventory control policies and a recordkeeping system to account for
       school supplies.

    3. Enforce inventory requirements of the FPA and FMR and supplemental policies,
       which have been identified as critical for achieving accurate physical inventories.

    4. Expand the list of items required by the FMR to be inventoried regardless of cost
       to include digital cameras, camcorders, cell phones, and other sensitive items.
.
    5. Establish cyclical management reviews to assess compliance with established
       inventory and property accountability policies and hold appropriate officials
       accountable for compliance through their performance appraisals.



                                             4
        In your September 10, 2007 response to our draft report (Appendix 2), you
concurred with our findings and recommendations. Based on your response, we consider
Recommendations 4 and 5 to be resolved but not implemented. However, your response
did not provide sufficient information for us to consider Recommendations 1, 2, and 3
resolved. Accordingly, we are requesting that you provide us with the information shown
in Appendix 3 of this report.

       The legislation, as amended, creating the Office of Inspector General requires that
we report to the Congress semiannually on all reports issued, actions taken to implement
our recommendations, and recommendations that have not been implemented.

        Please provide a response by November 30, 2007. Your response should provide
the information requested in Appendix 3. Please address your response to Mr. Kevin
Graves, Acting Field Supervisor, Honolulu Field Office, 2800 Cottage Way,
Suite E-2712, Sacramento, California 95825.

       We appreciate the cooperation shown by Kosrae State during our evaluation. If
you have any questions regarding this report, please call me at (202) 208-5745.

                                     Sincerely,



                                     Earl E. Devaney
                                     Inspector General

cc: Honorable Miriam K. Hughes, Ambassador, Federated States of Micronesia
    Chairman, Joint Economic Management Committee
    David B. Cohen, Deputy Assistant Secretary for Insular Affairs
    Nikolao Pula, Director, Office of Insular Affairs
    Marina Tinitali, Audit Liaison Officer, Office of Insular Affairs
    Honolulu Field Office, Office of Insular Affairs




                                            5
Appendix 1
Objective, Scope, and Methodology
             The objective of our evaluation was to determine whether the
             accountability process safeguarded supplies and equipment to
             minimize the risk of fraud, waste, and mismanagement. We
             reviewed accountability for supplies and equipment purchased
             with Health and Education sector grant funds as these two
             sectors received 65 percent of the total funding provided to
             Kosrae State in fiscal year 2006.

             We conducted our evaluation from February to April 2007. Our
             evaluation was conducted in accordance with the January 2005
             Quality Standards for Inspections issued by the President’s
             Council on Integrity and Efficiency. To accomplish our
             objective, we:

             ¾ Reviewed the legal and regulatory framework for U.S.
               financial assistance to the Federated States of Micronesia,
               including the Compact of Free Association, subsidiary
               agreements, grant documents, and Kosrae State’s financial
               management regulations. These documents establish
               numerous property accountability requirements and
               procedures.

             ¾ Reviewed reports by the Government Accountability Office
               that were applicable to our evaluation of property
               accountability.

             ¾ Reviewed and evaluated internal controls related to property
               accountability.

             ¾ Performed tests of property records to evaluate the adequacy
               of property controls and to verify the accuracy of property
               records. Kosrae State officials provided inventory listings
               showing a total of 867 property items. However, we limited
               our testing to the 283 property items controlled by DOE. Out
               of the 283 items, we judgmentally excluded 60 items
               identified as being vehicles and heavy equipment or located
               at four elementary schools that we did not plan to visit. Our
               judgmental sample therefore consisted of 223 property items.

             ¾ Performed tests of purchases made during fiscal year 2006 to
               determine if supplies and equipment were properly accounted
               for. We tested the reliability of the pharmacy’s inventory
               system by reviewing purchases and distributions of


                                6
   12 controlled substances made between June 2006 and
   February 2007. We also judgmentally selected and reviewed
   10 large purchases totaling $360,460 made by DOE in fiscal
   year 2006.

¾ Interviewed officials from OIA and Kosrae State.

¾ Reviewed DOI’s Fiscal Year 2005 Performance and
  Accountability Report, including information required by the
  Federal Manager’s Financial Integrity Act. DOI reported the
  need to increase the economic self-sufficiency of insular
  areas and address persistent program management problems.

The scope of our evaluation did not include a comprehensive
review of Kosrae State’s financial accounting and reporting
controls. However, during our evaluation, we were advised by
OIA officials that the Kosrae State Government diverted and
misused at least $1.025 million of Compact sector monies.
Because OIA officials, who are responsible for Compact
oversight, were taking action to determine how the diversion
occurred and to recover the Compact sector funds, we did not
consider it necessary to further evaluate the issue.




                   7
Appendix 2
Kosrae State Government Response




                     8
9
Appendix 3
Status of Recommendations


Recommendations       Status                      Action Required

        1         Management           Provide a plan of action that identifies
                  concurs, but         the specific corrective actions being
                  additional           taken by the Director, Department of
                  information          Health Services, and a target date for
                  needed.              implementing the plan of action.


        2         Management           Provide a plan of action that identifies
                  concurs, but         the specific corrective actions being
                  additional           taken by the Director, Department of
                  information          Education, and a target date for
                  needed.              implementing the plan of action.


        3         Management           Provide a plan of action that identifies
                  concurs, but         the specific corrective actions being
                  additional           taken by the Director, Department of
                  information          Administration and Finance, and a target
                  needed.              date for implementing the plan of action.


     4 and 5      Resolved, not        Provide a copy of the Governor’s
                  implemented.         Executive Order.




                                  10
